VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                         Review of 

                                                                       Alleged Data 

                                                                     Manipulation at the 

                                                                     VA Regional Office 

                                                                       Houston, TX





                                                                                     September 30, 2014
                                                                                       14-04003-298
                                 ACRONYMS 


OIG          Office of Inspector General
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                          Telephone: 1-800-488-8244 

                         E-Mail: vaoighotline@va.gov

          (Hotline Information: www.va.gov/oig/contacts/hotline.asp)

                                         TABLE OF CONTENTS 


Executive Summary ......................................................................................................................... i
 

Results and Recommendations ........................................................................................................1
 

     Allegation               Did a Houston VARO Employee Inappropriately Change or Remove 

                              Claims Processing Controls? ..........................................................................1


                              Recommendations...........................................................................................2


Appendix A                    Management Comments .................................................................................4
 

Appendix B                    OIG Contact and Staff Acknowledgments .....................................................6
 

Appendix C                    Report Distribution .........................................................................................7
 
                             EXECUTIVE SUMMARY 



On July 10, 2014, the Office of Inspector General received an allegation from Veterans Benefits
Administration (VBA) senior leadership in VA Central Office that a Houston VA Regional
Office (VARO) employee inappropriately changed or removed system controls for benefits
claims without taking proper actions on the claims. VBA uses electronic system controls to
identify types of claims, and manage and measure its pending and completed workloads.
Generally, such controls should remain in place until all required actions are completed on
claims, including providing notices of benefits decisions to the claimants.

We substantiated the allegation that the employee inappropriately cleared, changed, and
cancelled controls in the electronic record used to track and identify benefits claims without
taking proper actions to complete the claims. The VARO’s independent review team determined
the employee incorrectly cleared system controls in 136 (44 percent) of 308 claims, making these
unfinished claims appeared completed. We sampled 60 of the 308 cases and determined the
independent review team accurately identified whether corrective actions were needed and
established new controls where required. Further, we found the employee incorrectly changed or
cancelled system controls in 38 of 51 additional claims we sampled. The employee believed the
actions were appropriate and would improve production, but conceded making mistakes during
what he said was a period of immense stress. To address the issue, VBA leadership initiated
administrative action, to include removal of the employee’s system access.

These inappropriate actions misrepresented the VARO’s claims inventory and timeliness
measures, and impaired its ability to measure and manage its workloads. Further, some veterans
may never have received decisions on their claims if the VARO’s independent review team had
not discovered the improper actions by the employee. Our review did not identify any fraud
resulting in personal financial gain; however, the inappropriate actions described in this report
undermine program effectiveness. Therefore, we recommended the Houston VARO Director
take immediate action to fully review and correct, as appropriate, all actions the employee took
to clear, change, or cancel controls for claims. We also recommended the Director confer with
VA Regional Counsel to determine the appropriate administrative action to take, if any, against
this employee.




LINDA A. HALLIDAY
Assistant Inspector General
for Audits and Evaluations




VA Office of Inspector General                                                                  i
                                           Review of Alleged Data Manipulation at VARO Houston, TX



                    RESULTS AND RECOMMENDATIONS
Allegation          Did a Houston VARO Employee Inappropriately Change
                    or Remove Claims Processing Controls?

                    On July 10, 2014, the Office of Inspector General received an allegation from
                    Veterans Benefits Administration (VBA) senior leadership in VA Central
                    Office that a Houston VA Regional Office (VARO) employee
                    inappropriately changed or removed system controls for benefits claims
                    without taking proper actions on the claims.

Background          A Houston VARO employee notified VARO leadership that another
                    employee had cleared a system control for a claim without taking action to
                    complete the claim. VBA uses electronic system controls to identify types of
                    claims, and manage and measure its pending and completed workloads.
                    Generally, such controls should remain in place until all required actions are
                    completed on claims, including providing notices of benefits decisions to the
                    claimants. In addition, VBA uses these controls to identify pending claims
                    that require action.

                    VBA leadership tasked an independent team to review the allegation. The
                    VARO team evaluated the employee’s actions and found that, beginning in
                    March 2014, the employee cleared controls for claims without completing
                    rating decisions or notifying the claimants as required. The team determined
                    the employee incorrectly cleared controls in 136 (44 percent) of 308 instances
                    from March to June 2014, making these unfinished claims appear to be
                    completed. As a result, VBA leadership initiated certain administrative
                    actions, including removal of the employee’s system access, and referred the
                    allegation to the Office of Inspector General.

What We Did         We conducted a site visit at the Houston VARO to assess the merits of the
                    allegation. We obtained and reviewed the results of the VARO’s internal
                    review of what had occurred. We interviewed the employee who was the
                    subject of the allegation, as well as VARO leadership. Further, we sampled
                    instances where the employee took actions to clear, change, or cancel
                    controls for benefits claims to determine whether the actions were
                    appropriate. Also, we reviewed each sample to determine whether fraudulent
                    payments resulted from the employee’s inappropriate actions.

What We             We found that a Houston VARO employee inappropriately cleared, changed,
Found               and cancelled controls used to track and identify benefits claims without
                    taking proper actions. We first sampled 60 of the 308 cases the VARO team
                    had identified and reviewed where this employee cleared controls for claims.
                    We determined that in all 60 cases, the VARO team accurately identified
                    whether corrective action was needed and established new controls where


VA Office of Inspector General                                                                  1
                                           Review of Alleged Data Manipulation at VARO Houston, TX


                    required. If the VBA team had not identified the cases needing corrective
                    actions, the claimants may never have received decisions on their claims.

                    From a list provided by the VARO, we sampled cases where the employee
                    changed and cancelled controls used to track and identify benefits claims
                    from October 2013 through June 2014.                  We found that in
                    30 (83 percent) of 36 cases available for review, the employee incorrectly
                    changed controls to indicate that the claims were not rating claims. Further,
                    in 8 (53 percent) of 15 cases available for review, the employee incorrectly
                    cancelled controls for claims while issues remained pending. Our review did
                    not identify any fraud resulting in personal financial gain; however, the
                    inappropriate actions described in this report undermine program
                    effectiveness.

                    We interviewed the employee involved in the allegation who indicated no
                    intent to clear, change, or cancel controls to improve the VARO’s claims
                    inventory and timeliness measures. The employee stated that VARO
                    management had not provided directions to take the inappropriate actions,
                    nor did the employee instruct other staff to take similar actions. The
                    employee also thought the actions taken were appropriate and would improve
                    production. Conversely, the employee conceded making mistakes and using
                    bad judgment and said the actions occurred during a period of immense
                    stress.

Conclusion          Based on our interviews and examination of a total 111 actions, we
                    substantiated the allegation that the employee inappropriately cleared,
                    changed, and cancelled system controls for benefits claims. These actions
                    had the adverse impact of misrepresenting the VARO’s claims inventory and
                    timeliness measures, while impairing the VARO’s ability to monitor and
                    manage its workload. Further, some veterans may never have received
                    decisions on their claims if the VARO’s independent review team had not
                    identified the inappropriate actions. We briefed VARO management on the
                    results of this review on July 25, 2014. Given the nature and seriousness of
                    the employee’s errors, we believe the VARO needs to take immediate action
                    to fully review and correct, as appropriate, all actions this employee took to
                    inappropriately clear, change, or cancel controls for claims.

                    Recommendations

                    1.	 We recommended the Houston VA Regional Office Director take
                        immediate action to fully review and correct, as appropriate, all actions
                        the employee took to clear, change, or cancel controls for claims.

                    2.	 We recommended the Houston VA Regional Office Director confer with
                        Regional Counsel to determine the appropriate administrative action to
                        take, if any, against this employee.


VA Office of Inspector General                                                                  2
                                          Review of Alleged Data Manipulation at VARO Houston, TX


Management          The VARO Director concurred with our recommendations and reviewed all
Comments            136 inappropriately cleared actions and all 38 inappropriately cancelled or
                    changed actions. The VARO is processing these claims in accordance with
                    regulations to ensure the proper delivery of benefits. Further, the Director
                    conferred with Regional Counsel t o determine the appropriate
                    administrative action to take against the employee.

OIG Response        The Director’s comments and actions are responsive to the recommendations.
                    We will follow up on management’s actions during future inspections.

Government          We conducted this review in accordance with the Council of the Inspectors
Standards           General on Integrity and Efficiency’s Quality Standards for Inspection and
                    Evaluation except those assessing internal controls.




VA Office of Inspector General                                                                 3
                                                 Review of Alleged Data Manipulation at the Houston VARO


Appendix A              Management Comments


                Department of
                Veterans Affairs
                                                                Memorandum
        Date:        September 18, 2014
        From:
                     Director, VA Regional Office, Houston, Texas
        Subj:
                     Review of Alleged Data Manipulation at the VA Regional Office, Houston,
                     Texas
          To:
                     Assistant Inspector General for Audits and Evaluations (52)


                1. 	 The Houston VARO provides the following response to the OIG investigation
                     and report regarding Alleged Data Manipulation at the Houston VA Regional
                     Office.
                2.   Please refer questions to Jane Hill, Program Analyst, at 713-383-1720.

                     (original signed by:)
                     Pritz Navaratnasingam

                     Director



                     Attachment




VA Office of Inspector General                                                                        4
                                             Review of Alleged Data Manipulation at the Houston VARO


Attachment



The Houston Regional Office provides the following response to the OIG investigation and report
regarding the alleged data manipulation at the Houston VARO .

Recommendation 1: We recommended the Houston VA Regional Office Director take immediate
action to fully review and correct, as appropriate, all actions the employee took to clear, change, or
cancel controls for claims.

Director Response: Concur

The Houston Regional Office has reviewed all 136 inappropriately cleared actions and all
38 inappropriately cancelled or changed actions. The Regional Office is processing these claims in
accordance with regulations to ensure the proper delivery of benefits. VBA requests closure of this
recommendation.

Recommendation 2: We recommended the Houston VA Regional Office Director confer with
Regional Counsel to determine the appropriate administrative action to take, if any, against this
employee.

Director Response·: Concur

The Houston VA Regional Office conferred with Regional Counsel and took the appropriate
administrative action.




VA Office of Inspector General                                                                           5
                                         Review of Alleged Data Manipulation at the Houston VARO


Appendix B          OIG Contact and Staff Acknowledgments


                      OIG Contact 	            For more information about this report, please
                                               contact the Office of Inspector General at
                                               (202) 461-4720
                      Acknowledgments	         Brent Arronte, Director
                                               Brett Byrd
                                               Jeff Myers
                                               Diane Wilson




VA Office of Inspector General                                                                6
                                          Review of Alleged Data Manipulation at the Houston VARO


Appendix C          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Houston Director


                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: John Cornyn, Ted Cruz
                    U.S. House of Representatives: Joe Barton, Kevin Brady, Michael Burgess,
                       John Carter, Joaquin Castro, K. Michael Conaway, Henry Cuellar,
                       John Culberson, Lloyd Doggett, Blake Farenthold, Bill Flores,
                       Pete Gallego, Louie Gohmert, Kay Granger, Al Green, Gene Green,
                       Ralph M. Hall, Jeb Hensarling, Rubén Hinojosa, Sheila Jackson Lee,
                       Eddie Bernice Johnson, Sam Johnson, Kenny Marchant,
                       Michael T. McCaul, Randy Neugebauer, Pete Olson, Beto O’Rourke,
                       Ted Poe, Pete Sessions, Lamar Smith, Steve Stockman, Mac Thornberry,
                       Marc Veasey, Filemon Vela, Randy Weber, Roger Williams




            This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 7
